No. ______
In the

Supreme Court of the United States
__________________
PAUL AND JEAN DOVIN,
Petitioners,
v.
KENNETH L. AND KAY SWEITZER, ET AL.,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
Supreme Court of Pennsylvania

__________________
PETITION FOR WRIT OF CERTIORARI
__________________

Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
(o) 407-388-1900
robertsirianni@brownstonelaw.com
Attorney for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
Whether the Pennsylvania Supreme Court Erred in
Denying Petitioners Right to Appeal Under the
Collateral Orders Doctrine?

ii
PARTIES TO THE PROCEEDINGS
The parties to the proceedings before this Court are
as follows:
Paul and Jean Dovin, Petitioners
Kenneth L. and Kay Sweitzer, et al., Respondents
LIST OF PROCEEDINGS
SUPREME COURT OF PENNSYLVANIA, MIDDLE
DISTRICT
Case No. 88 MAL 2019
PAUL & JEAN DOVIN, H/W v. KENNETH L. AND
KAY W. SWEITZER, H/W and CAERNARVON
TOWNSHIP and HOPEWELL CHRISTIAN
FELLOWSHIP OF ELVERSON
Order dated 8/6/19
COMMONWEALTH COURT OF PENNSYLVANIA
Docket no. 1180 C.D. 2018
PAUL & JEAN DOVIN, H/W v. KENNETH L. AND
KAY W. SWEITZER, H/W and CAERNARVON
TOWNSHIP and HOPEWELL CHRISTIAN
FELLOWSHIP OF ELVERSON
Order dated 1/10/19
PENNSYLVANIA COURT OF COMMON PLEAS,
BERKS COUNTY
Docket no. 16-19910
PAUL & JEAN DOVIN, H/W v. KENNETH L.
AND KAY W. SWEITZER, H/W and CAERNARVON
TOWNSHIP and HOPEWELL CHRISTIAN
FELLOWSHIP OF ELVERSON
Order dated 8/14/18

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
PARTIES TO THE PROCEEDINGS. . . . . . . . . . . . . ii
LIST OF PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
BASIS FOR JURISDICTION IN THIS COURT . . . 1
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES, ORDINANCES, AND
REGULATIONS INVOLVED . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
A. Factual Basis for the Writ. . . . . . . . . . . . . . . . 4
B. Petitioners’ Hearing on Their Motion for
Protective Order . . . . . . . . . . . . . . . . . . . . . . . 5
C. Petitioners’ Motion for Reconsideration . . . . . 6
D. Petitioners’ Appeal to the Supreme Court of
Pennsylvania . . . . . . . . . . . . . . . . . . . . . . . . . . 7
REASONS TO GRANT THIS PETITION. . . . . . . . . 9
I. THE DECISION OF THE PENNSYLVANIA
SUPREME COURT CONFLICTS WITH THE
FOURTH, FIFTH AND FOURTEENTH
AMENDMENTS. . . . . . . . . . . . . . . . . . . . . . . . . . 9

iv
A. Violations of the Fourth Amendment
Protection From Unreasonable Search and
Seizure are of Sufficient Importance to be
Entitled to Review Under the Collateral
Order Doctrine. . . . . . . . . . . . . . . . . . . . . . . . . 9
B. Violations of the Fifth Amendment Right to
Due Process of Law are of Sufficient
Importance to be Entitled to Review Under
the Collateral Order Doctrine . . . . . . . . . . . . 12
C. Petitioners’ Claim Will Be Irreparably Lost
if Review is Postponed Until Final Judgment
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
APPENDIX
Appendix A Order Denying Petition for Allowance
of Appeal in the Supreme Court of
Pennsylvania, Middle District
(August 6, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Order in the Commonwealth Court of
Pennsylvania
(January 10, 2019) . . . . . . . . . . . . App. 3
Appendix C Order on Plaintiffs’ Motion for
Protective Order Concerning
Caernarvon Township’s Expert Real
Estate Appraiser’s Inspection in the
Court of Common Pleas, Berks
County, Pennsylvania
(August 14, 2018) . . . . . . . . . . . . . App. 5

v
TABLE OF AUTHORITIES
CASES
Camara v. Municipal Court of City and County of
San Francisco,
387 U.S. 523 (1967). . . . . . . . . . . . . . . . . . . . . . . 10
Carpenter v. United States,
138 S. Ct. 2206 (2018). . . . . . . . . . . . . . . . . . . . . 10
City of Ontario v. Quon,
560 U.S. 746 (2010). . . . . . . . . . . . . . . . . . . . . . . 10
Cohen v. Benefit Indus. Loan Corp.,
337 U.S. 541 (1949). . . . . . . . . . . . . . . . . . . . . . . 14
Commonwealth. ex. rel. Kane v. Phillip Morris, Inc.,
128 A.3d 334 (2015) . . . . . . . . . . . . . . . . . . . . . . 13
Commonwealth v. Sabula,
46 A.3d 1287 (Pa. Super. 2012) . . . . . . . . . . . . . 13
Digital Equip. Corp. v. Desktop Direct,
511 U.S. 863 (1994). . . . . . . . . . . . . . . . . . . . . . . 14
Dougherty v. Heller,
138 A.3d 611 (Pa. 2016) . . . . . . . . . . . . . . . . . . . 11
Dovin v. Kenneth L.,
No. 88 MAL 2019, 2019 Pa. LEXIS 4377
(August 6, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Firestone Tire & Rubber Co. v. Risjord,
499 U.S. 368 (1981). . . . . . . . . . . . . . . . . . . . . . . 14
In re Gault,
387 U.S. 1 (1967). . . . . . . . . . . . . . . . . . . . . . . . . 12

vi
Kowenhoven v. County of Alleghany,
901 A.2d 1003 (Pa. 2006) . . . . . . . . . . . . . . . . . . 13
Lauro Lines s.r.l. v. Chasser,
490 U.S. 495 (1989). . . . . . . . . . . . . . . . . . . . . . . 14
Mapp v. Ohio,
367 U.S. 643 (1961). . . . . . . . . . . . . . . . . . . . 10, 11
Skinner v. Railway Labor Executives Ass’n,
489 U.S. 602 (1989). . . . . . . . . . . . . . . . . . . . . . . 10
Smith v. Maryland,
442 U.S. 735 (1979). . . . . . . . . . . . . . . . . . . . . . . 10
STATUTES
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . 3, 4, 9, 12
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . passim
STATUTES
28 U.S.C. § 1655 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. §1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Pa. R.A.P. 313. . . . . . . . . . . . . . . . . . . . . . . . 3, 7, 9, 11
Rule 60(B) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

1
PETITION FOR WRIT OF CERTIORARI
The Petitioners respectfully request that a Writ of
Certiorari issue to review the denial of their Petition
for Allowance of Appeal by the Supreme Court for the
Middle District of Pennsylvania on August 6, 2019.
OPINIONS BELOW
The August 6, 2019 Order Denying Petition for
Allowance of Appeal in the Supreme Court of
Pennsylvania is reproduced at App. 1. The January 10,
2019 Order in the Commonwealth Court of
Pennsylvania is reproduced at App. 3. The August 14,
2018 Order in the Court of Common Pleas, Berks
County, Pennsylvania is reproduced at App. 5.
BASIS FOR JURISDICTION IN THIS COURT
The August 6, 2019 decision of the Supreme Court
of Pennsylvania for the Middle District denying
Petitioners’ Petition for Allowance of Appeal, which
decision is herein sought to be reviewed can be found at
Dovin v. Kenneth L., No. 88 MAL 2019, 2019 Pa. LEXIS
4377 (August 6, 2019). The January 10, 2019 decision
of the Commonwealth Court of Pennsylvania granting
Respondent’s Motion to Quash was not published. The
August 14, 2018 decision of the Berks County Court of
Common Pleas was not published.
The statutory provision believed to confer on this
Court jurisdiction to review on a writ of certiorari the
judgment or order in question is 28 U.S.C. §1257.

2
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES, ORDINANCES, AND
REGULATIONS INVOLVED
Rule 60(B) states:
Relief from a Judgment or Order (a)
CORRECTIONS BASED ON CLERICAL
MISTAKES; OVERSIGHTS AND OMISSIONS.
The court may correct a clerical mistake or a
mistake arising from oversight or omission
whenever one is found in a judgment, order, or
other part of the record. The court may do so on
motion or on its own, with or without notice. But
after an appeal has been docketed in the
appellate court and while it is pending, such a
mistake may be corrected only with the
appellate court’s leave. (b) GROUNDS FOR
RELIEF FROM A FINAL JUDGMENT,
ORDER, OR PROCEEDING. On motion and just
terms, the court may relieve a party or its legal
representative from a final judgment, order, or
proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable
neglect; (2) newly discovered evidence that, with
reasonable diligence, could not have been
discovered in time to move for a new trial under
Rule 59(b); (3) fraud (whether previously called
intrinsic or extrinsic), misrepresentation, or
misconduct by an opposing party; (4) the
judgment is void; (5) the judgment has been
satisfied, released, or discharged; it is based on
an earlier judgment that has been reversed or
vacated; or applying it prospectively is no longer

3
equitable; or (6) any other reason that justifies
relief. (c) TIMING AND EFFECT OF THE
MOTION. (1) Timing. A motion under Rule 60(b)
must be made within a reasonable time—and for
reasons (1), (2), and (3) no more than a year
after the entry of the judgment or order or the
date of the proceeding. (2) Effect on Finality. The
motion does not affect the judgment’s finality or
suspend its operation. (d) OTHER POWERS TO
GRANT RELIEF. This rule does not limit a
court’s power to: (1) entertain an independent
action to relieve a party from a judgment, order,
or proceeding; (2) grant relief under 28 U.S.C.
§ 1655 to a defendant who was not personally
notified of the action; or (3) set aside a judgment
for fraud on the court.
STATEMENT OF THE CASE
This Petition brings a challenge to the Pennsylvania
Supreme Court’s refusal to grant petitioner’s
Application for Leave to Appeal on due process
grounds. The Petition’s central argument is that the
Pennsylvania Supreme Court erred in its
interpretation of Section 313 of the Pennsylvania State
Code when it affirmed the Commonwealth Court’s
position that Petitioner’s Fourth, Fifth, and Fourteenth
Amendment claims were not separable from the merits
of the underlying action. Privacy claims under the
Fourteenth Amendment are rights which are deeply
rooted in public policy. Petitioners Request this court
grant certiorari so the Court may address novel and
important questions of Constitutional law that arise in
this case, namely, whether the Fourteenth

4
Amendment’s incorporation of the Fourth Amendment
protection from unreasonable search and seizure and
the Fifth Amendment right to due process are rights
too important to be denied review.
A. Factual Basis for the Writ
On or about November 2, 2016, Respondents Paul
and Jean Dovin (“Petitioners”) filed a Complaint in the
Berks County Court of Common Pleas against
Caernarvon Township, (the “Township”), Hopewell
Christian Fellowship of Elverson (the “Fellowship”),
and Kenneth and Kay Sweitzer (collectively,
“Respondents”). The Complaint alleged that storm
water runoff from the Fellowship’s property flows
across a local road to a berm on the property of
Kenneth and Kay Sweitzer, which alters the natural
flow of the water and directs it onto Petitioners’
property via channels allegedly cut by the Township.
Plaintiffs allege that this runoff has rendered large
sections of their property a virtual swamp and
precluded productive usage.
In response to Petitioners’ Complaint, the Township
requested that the Petitioners open their property to
inspection by its real estate appraisal expert. This
inspection would require the petitioners to open all real
property on their parcel to inspection, despite the fact
that petitioners have alleged no damage whatsoever to
the Dwelling and Barn located on the parcel. This
Dwelling and Barn constitute the entirety of the
buildings attached to the land and were not referenced
by any of the Respondents in their relevant pleadings.
The Township claimed that since the buildings were
vacant, Petitioners’ privacy interests would not be

5
affected. In fact, neither building is vacant, and both
are routinely accessed by the Petitioners. On July 16,
2018, Petitioners filed a Motion for a Protective Order
to preclude the Township’s real estate appraiser from
accessing their property for the purposes of entering or
inspecting thereon, since the structures are plainly not
relevant to the litigation.
B. Petitioners’ Hearing on Their Motion for
Protective Order
The Township filed a response to Petitioners’
Motion on July 27, 2018. By Order dated July 27, 2018,
and docketed July 31, 2018, the Court of Common
Pleas scheduled a hearing on the Motion for August 14,
2018. On August 8, 2018, more than 20 days after the
initial motion, the Fellowship filed their response. On
August 10, 2018, Petitioners requested a continuance
of the hearing, which was subsequently granted on
August 13, 2018. None of the parties involved in the
case were apprised of this ruling. Although conflicts
prevented Petitioners from appearing, they arranged
for their daughter, Deborah Dovin (“Ms. Dovin”) to
testify on August 14, 2018 in order to present evidence
in support of their Motion for a Protective Order. Upon
the arrival of Petitioner’s Counsel (“Counsel”) to the
courthouse, he checked the Court’s daily schedule and
saw that the hearing had been marked as continued.
Counsel confirmed this development with courthouse
staff before informing Ms. Dovin. Ms. Dovin and
Counsel subsequently left the courthouse. Roughly ten
minutes later, counsel received a call informing him
that the Court had requested his presence at the
courthouse.

6
Counsel then proceeded to return to the courthouse
and enter the Courtroom, where counsel for all other
parties were already present. When the Court took the
bench, counsel immediately explained that merely ten
minutes prior he had been informed by the posted
schedule and Courthouse staff that the continuance
requested on August 10, 2018 had been granted. As a
result, he had informed Ms. Dovin that she was free to
leave the Courthouse. Over his objections, the Court
proceeded to conduct a hearing on Petitioners’ July 16,
2018 Motion for a Protective Order. This hearing took
place even though Petitioners’ request for continuance
had been granted, this information was posted publicly
on the Courthouse schedule, Courthouse staff had
informed counsel that the matter had been continued,
the Court was well informed that Petitioners’ witnesses
were unavailable, and, most importantly, that the
Court was aware that the proceeding would deprive
Petitioners of the opportunity to be heard by presenting
evidence in support of their Motion.
Although the Judge acknowledged the unfairness of
the situation on the record, he nevertheless proceeded
to conduct the hearing. The Court heard testimony
from the Respondent’s witnesses and decided
Petitioners’ Motion on the merits. The Trial Court
issued an order denying Petitioners’ Motion for a
Protective Order despite the fact that the hearing it
was issued from was not scheduled to occur.
C. Petitioners’ Motion for Reconsideration
Petitioners immediately set about filing a Motion
for Reconsideration of the trial court’s order, which was
submitted on August 20, 2018. The lower court denied

7
this motion on September 13, 2018. Petitioners also
filed a notice of appeal of the trial court’s August 14,
2018 order with the Commonwealth Court on August
23, 2018, and a Concise Statement of Matters
Complained Of on appeal on October 2, 2018. The due
date for Petitioners’ principle brief was set for
December 12, 2018; On December 5, 2018, the
Township filed a Motion to Quash Petitioners appeal.
On January 10, 2019, this motion was granted by the
Commonwealth Court on the grounds that the second
and third prongs of the collateral order doctrine found
in Section 313 of the Pennsylvania State Code
precluded appellate review of the trial court’s
judgment.
D. Petitioners’ Appeal to the Supreme Court
of Pennsylvania
On appeal, Petitioners argued that they were
unfairly denied Due Process of Law by not being
allowed to present evidence in support of their Motion
for Protective Order. Petitioners claimed that the
Commonwealth Court erred in interpreting Section 313
of the Pennsylvania State Code to bar their appeal.
Respondents conceded that Petitioners met the first
prong of the collateral order doctrine, in that their
claim is separable from main cause of action and
therefore capable of review without considering the
merits of the underlying action. However, Petitioners
argued that the Commonwealth Court misapplied the
second and third prongs of the doctrine, i.e. the
importance of the interests involved and their loss of
claim upon postponement of review until final
judgment.

8
First, Petitioners argued that their Constitutional
right to privacy in their real property has been violated
by a court order requiring them to permit the
inspection of a dwelling and other physical structures
present on their property which are not vacant and are
not relevant to any claim or defense offered by
Petitioners or Respondents. Petitioners claimed that
their right to due process of law was too important to
be denied review. Petitioners invoked fundamental
fairness concerns and the importance of Constitutional
privacy rights.
Next, Petitioners argued under the second prong of
the collateral order doctrine that their claim would be
lost if postponed until final judgment. Petitioners
claimed that the privacy violation incurred by an
inspection of their property without their consent could
not simply be “undone” at a later date, since the
inspection is a violation in and of itself. Similarly,
Petitioners also argued that a new hearing on their
Motion for Protective Order would be insufficient, since
the violation of privacy (the inspection) would already
have been carried out.
The Supreme Court of Pennsylvania denied
Petitioners’ Appeal on August 16, 2019 without issuing
an opinion. This Petition for writ of certiorari followed.

9
REASONS TO GRANT THIS PETITION
I. THE DECISION OF THE PENNSYLVANIA
SUPREME COURT CONFLICTS WITH THE
FOURTH, FIFTH AND FOURTEENTH
AMENDMENTS.
This Court should accept this petition because the
Pennsylvania Supreme Court’s decision below
incorrectly construed and applied Section 313 of the
Pennsylvania State Code giving rise to an important
issue of uniform national law. (Pa. R.A.P. 313). As it
stands, the Fourth and Fourteenth Amendments
provide Americans protection from unreasonable
search and seizure of their persons, houses, papers,
and effects. (U.S. Const. amend. IV)(U.S. Const.
amend. XIV). The Fifth and Fourteenth Amendments
provides that no person shall be deprived of life,
liberty, or property without due process of law. (U.S.
Const. amend. V)(U.S. Const. amend. XIV). The
Pennsylvania Supreme Court’s decision creates a rift in
the uniform national application of the protection from
unreasonable search and seizure and guarantee of the
due process of law that violates the Fourth, Fifth, and
Fourteenth Amendments.
A. Violations of the Fourth Amendment
Protection From Unreasonable Search and
Seizure are of Sufficient Importance to be
Entitled to Review Under the Collateral
Order Doctrine
This Court has held that “The Fourth Amendment
protects ‘the right of the people to be secure in their
persons, houses, papers, and effects, against

10
unreasonable searches and seizures.’ The ‘basic
purpose of this amendment’. . . ‘is to safeguard the
privacy and security of individuals against arbitrary
invasions by government officials.’ The Founding
generation crafted the Fourth Amendment as a
‘response to the reviled “general warrants” and “writs
of assistance” of the colonial era.” Carpenter v. United
States, 138 S. Ct. 2206, 2213 (2018)(quoting Camara v.
Municipal Court of City and County of San Francisco,
387 U.S. 523, 528 (1967)).
In defining the scope of this protection from
unreasonable search, this court has additionally held
that “when an individual seeks to preserve something
as private, and his expectation of privacy is ‘one that
society is prepared to recognize as reasonable,’ official
intrusion into that sphere generally qualifies as a
search.”(Carpenter, 138 S. Ct. 2206, 2013)(citing to
Smith v. Maryland, 442 U.S. 735, 740 (1979)).
Additionally, this Court has held that “It is well settled
that the Fourth Amendment’s protection extends
beyond the sphere of criminal investigations. ‘The
Amendment guarantees the privacy, dignity, and
security of persons against certain arbitrary or invasive
acts by officers of the Government’ without regard to
whether the government actor is investigating crime or
performing another function.” City of Ontario v. Quon,
560 U.S. 746 (2010)(quoting Camara, 387 U.S. 523,
530)(citing to Skinner v. Railway Labor Executives
Ass’n, 489 U.S. 602, 613-614 (1989)).
In Mapp v. Ohio, this Court officially incorporated
the Fourth Amendment protection from unreasonable
search and seizure against the states under the aegis

11
of the Fourteenth Amendment. See Mapp v. Ohio, 367
U.S. 643 (1961). Additionally, the Supreme Court of
Pennsylvania has held that privacy rights are generally
entitled to immediate review. See, e.g., Dougherty v.
Heller, 138 A.3d 611, 628 (Pa. 2016).
Here, Petitioners argue that their Constitutional
right to privacy has been violated by a court order
forcing them to open their real property to an
inspection with no relevance to any claim or defense
present in the ongoing litigation. The trial court’s
August 14, 2018 order denying Petitioners’ Motion for
Protective Order deprived Petitioners of their rights
under the Pennsylvania and United States
Constitutions. By failing to provide Petitioners with
certainty as to the date or time of the hearing, the
Pennsylvania Court of Common Pleas denied them the
opportunity to call witnesses or present evidence on
behalf of their Constitutional right to privacy.
Petitioners further attempts to remedy this wrong have
been rebuffed.
By this Courts acknowledgement, the Fourth
Amendment protection from unreasonable search has
been an essential component of American law since the
founding. By misapplying Section 313 of the
Pennsylvania state code, lower courts have suggested
that it is not of sufficient importance to be granted
review under the collateral orders doctrine. Petitioners
have a reasonable expectation of privacy on their own
property. Additionally, their expectation of privacy in
their own real property should by all accounts be
considered one that is reasonable by the standards of
general society and should thus be entitled to some

12
degree of protection from official intrusion, whether as
part of a criminal investigation or pursuant to a civil
matter.
B. Violations of the Fifth Amendment Right to
Due Process of Law are of Sufficient
Importance to be Entitled to Review Under
the Collateral Order Doctrine
The Fifth Amendment to the United States
Constitution declares that “No person shall . . . be
deprived of life, liberty, or property without due process
of law.” (U.S. Const. amend. XIV.) Due process of law
is a fundamental right which applies evenly to all
citizens. This court stated in In re Gault that;
“Due process of law is the primary and
indispensable foundation of individual freedom.
It is the basic and essential term in the social
compact which defines the rights of individuals
and delimits the powers which the state may
exercise. As Mr. Justice Frankfurter has said:
“The history of American freedom is, in no small
measure, the history of procedure.”
In re Gault, 387 U.S. 1, 21-22 (1967).
An essential component of procedural due process is
notice. This Court has held that “due process requires
notice . . . which would be deemed adequate in a civil or
criminal proceeding.” Id. at 33. Additionally, “notice, to
comply with due process requirements, must be given
sufficiently in advance of scheduled court proceedings
so that reasonable opportunity to prepare will be
afforded.” Id.

13
In Pennsylvania, “generally, the implication of due
process concerns is too important to be denied review.”
Commonwealth. ex. rel. Kane v. Phillip Morris, Inc.,
128 A.3d 334, 344 (2015). See, e.g., Commonwealth v.
Sabula, 46 A.3d 1287, 1292 (Pa. Super. 2012).
Additionally, Pennsylvania state courts have
emphasized the importance of the due process right to
present evidence on one’s own behalf. See Kowenhoven
v. County of Alleghany, 901 A.2d 1003, 1010 (Pa. 2006).
Here, Petitioners argue that their Constitutional
right to due process of law was violated by the
Commonwealth Court’s failure to provide adequate
notice of the hearing conducted on August 14, 2018.
Their August 10, 2018 Motion for Continuance was
granted by the Commonwealth Court on August 13,
2018. This decision was posted on the Courthouse
schedule, and Petitioners counsel was informed of the
Courts decision by courthouse staff. The Court decided
to hold the initially scheduled hearing anyway, despite
the fact that it was no longer docketed for that time.
Furthermore, the Court was aware that their
decision meant that Petitioners would be unable to
present witnesses, and that the hearing would deprive
them of their constitutional right to be heard. At the
core of their argument, Petitioners contend that all
litigants are entitled to adequate notice of matters as
simple, yet critical, as when a hearing will be
scheduled. They believe that litigants before the Court
of Common Pleas deserve a reasonable opportunity to
prepare for a hearing.

14
C. Petitioners’ Claim Will Be Irreparably Lost
if Review is Postponed Until Final
Judgment
This Court has previously permitted appeals prior
to the lower courts final judgment in cases when “[The]
decision appears to fall in that small class which finally
determine claims of right separable from, and collateral
to, rights asserted in the action, too important to be
denied review and too independent of the cause itself to
require that appellate consideration be deferred until
the whole case is adjudicated.” Cohen v. Benefit Indus.
Loan Corp., 337 U.S. 541, 546 (1949).
The three-part test found in Cohen has been the
standard for appealing collateral orders for almost
seventy years. Collateral orders are entitled to appeal
if they are separable from the underlying claim, effect
rights which are too important to be denied review, and
the right in question cannot be remedied once the final
judgment has been issued. See, e.g., Lauro Lines s.r.l.
v. Chasser, 490 U.S. 495 (1989), Digital Equip. Corp. v.
Desktop Direct, 511 U.S. 863 (1994), Firestone Tire &
Rubber Co. v. Risjord, 499 U.S. 368 (1981).
Respondents are not contesting that Petitioners’
claim is separable from the merits of the case, and the
previous sections of this petition have addressed the
importance of Petitioners’ rights. Therefore, the only
remaining question to address is the status of their
claim if review is postponed until final judgment.
Here, the trial court’s August 14, 2018 order forces
Petitioners to open their property to an unwanted and
unnecessary inspection, thereby violating their Fourth

15
Amendment protection from unreasonable search. This
violation cannot simply be “undone” by later review.
The inspection itself is the violation. Petitioners’
privacy interest is an important right which they seek
to protect; once the search of their property has been
conducted, the right has been lost permanently.
Additionally, a new hearing on their Motion for
Protective Order to remedy the violation of Petitioners’
due process rights would be meaningless. The
unwanted and unnecessary search would have already
taken place, meaning that Petitioners’ Constitutional
rights would be irredeemably damaged. Petitioners’
cannot receive justice under the law if their appeal is
postponed until after the final judgment. Therefore,
they have satisfied the third prong of the collateral
order doctrine and are deserving of review.
Accordingly, the Petitioner requests this Honorable
Court grant this Petition.
CONCLUSION
For the forgoing reasons, this Petition for a writ of
certiorari should be granted.

16
Respectfully submitted,
Robert L. Sirianni, Jr., Esq.
Counsel of Record
BROWNSTONE, P.A.
P.O. Box 2047
Winter Park, Florida 32790-2047
(o) 407-388-1900
robertsirianni@brownstonelaw.com
Attorney for Petitioners

